No. 19-127
In The
Supreme Court of the Anited States

Anmarie Calgaro,
Petitioner,

vs.

St. Louis County, Linnea Mirsch, Individually and in her Official Capacity as
Interim Director of St. Louis County Public Health and Human Services, Fairview
Health Services, A Minnesota Nonprofit Corporation, Park Nicollet Health Services,

A Nonprofit Corporation, St. Louis County School District, Michael Johnson,
Individually and in His Official Capacity as Principal of the Cherry School,
St. Louis County School District and E.J-K.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

BRIEF IN OPPOSITION OF RESPONDENTS
ST. LOUIS COUNTY SCHOOL DISTRICT AND
PRINCIPAL MICHAEL JOHNSON

RULE 33.1(h) CERTIFICATE OF WORD COUNT

As preparer of the document above, I hereby certify that the Brief in Opposition
of Respondents St. Louis County School District and Principal Michael Johnson,
Docket no. 19-127, complies with Rule 33.1 in that it contains the proper typeface in
the proper size. I further certify that the document contains 2,075 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on E23 , 2019.

Stephen M. West
Legal Brief Manager, Bachman Legal Printing

Subscribed and_sworn to before me this 23rd day of August, 2019.
Bee ‘

 

ZF KRISTI AUSTIN MOTCH
NOTARY PUBLIC - MINNE:
Commission Expires Jan. 3

    
  

  
 

F

N

 
  
 

  
 

‘tary Public

  
 

 

2019-- BACHMAN LEGAL PRINTING ~ FAX (612) 337-8053 — PHONE (612) 339-9518 or 1-800-715-3582
